U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: David Lague v. United States, No. 20-6296
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 5,
2020. The government’s response is now due, after two extensions, on February 12, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 16, 2021, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6296
LAGUE, DAVID
USA

LEAH LINDO SPERO
LAW OFFICE OF LEAH LINDO SPERO
255 KANSAS STREET
STE. 340
SAN FRANCISCO, CA 94103

